A* <P->. P'. !

V-—S

p

NO.

■■

IN THE
SUPREME COURT THE UNITED STATES
!

KRYSTAL MEGAN DELIMA- PETITIONER

t/.' i.-- K

•

r- v

':r r; " - r

^ I.;l'

v.

WAL-MART STORES ARKANSAS, LLC. ~ RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE EIGHT CIRCUIT

FILED
MAY 0 6 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

PETITION FOR WRIT OF CERTIORARI

KRYSTAL MEGAN DELIMA, PETITIONER
54985 COUNTY ROAD 586
KANSAS, OKLAHOMA 74347
CELL PHONE NO. (479)238-3566

RECEIVED
SEP 2 3 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTION PRESENTED
A jury trial was conducted on the charges of Negligence and Premise Liability
against the Respondent. During the trial, actions of misrepresentations,
misconducts and a malfunctioning court reporter due to transcript being
transcribed and prepared in violations to Judiciary Policy that resulted in
incomplete and lacked of important details about facts which polluted the truth
before jury deliberation. A complaint was filed to the Administrative Office of the
United States Courts to address Petitioner’s concerns of the malfunctions which
compromised the validity and credibility of the transcripts. Another disturbance
and misconduct, was respondent’s failure to call its key witness, who was
subpoenaed to appear to testify for reason of her knowledge of the spoliation of
evidence and violation of the store policy when there is an incident. Other
respondent’s witness came very late and added more disturbances. Due to the
irregularities, the proceeding did not achieve a court atmosphere and condition
conducive to a fair trial wherein decision or judgment should be made under Due
Process or fundamental fairness. But the court had denied on Petitioner’s timely
filed Motion for a New Trial, FRCP- Rule 59. It is an application for a retrial of the
facts of the case. Castellaw v. Blanchard, 106 Ga. 97 (31 SE 801); Buchanan v.
James, 134 Ga. 475 (1) (68 SE (72).The Eight Circuit Court of Appeals also did not
give the opportunity for Oral Argument, though requested on the beginning of the
appeal and this case sit for almost one year unreviewed but finally decided a Per
Curiam with Affirmation to Judgment. As a result of its unnecessary and
improperly broad analysis, the trial court and Eight Circuit generated a fractured
but precedential opinion that will cause confusion and inconsistencies for countless
litigants in the future.
QUESTIONS PRESENTED:
1. Whether a Motion for a New Trial, FRCP Rule 59, should had been granted?
2. Whether Jury’s Verdict, went against Preponderance of Evidence due the
Irregularities of the Proceeding wherein Substantial Evidences/ facts have been
unfairly reviewed due to Miscarriage of Justice?
3. Whether the U.S. Supreme Court, conduct a thorough and fair
examination and evaluation as the laws apply and review the damages and
penalty in the justification this case. Amendment XIV, states that, “No state
shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.

LIST OF PARTIES
KRYSTAL MEGAN DELIMA v. WAL-MART STORES ARKANSAS, LLC.

TABLE OF CONTENT

TITLES

PAGE NUMBER

TABLE OF AUTHORITIES

11

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED

ii-iv

Ark. Code Ann. § 16-56-105-----Ark. Code Ann. § 16-55-201(a).

li

14

ARK. CODE ANN. § 16-55-212(b),
Amendment

14

XIV

■i,2,

AMI 1104 - Duty Owed to Invitee-

4

AMI 202 Burden of Proof and Preponderance of the Evidence

3

AMI 106 Effect of Intentional Destruction or Suppression of Evidence

■2

AMI501 Proximate Cause—Concurring Proximate Cause—DefinitionAMI 1101 Willful or Wanton Conduct—Definition ----------------------AMI 1110 Duty Owed by Owner or Occupier of Land—Injuries or Damages
OffPremisesAMI 2203 Measure of Damages—Aggravation of Pre-existing Conditionii

-3
3
4
5

AMI 2204 Measure of Damages—Medical Expense—Past and Future-

•5

AMI 2205 Measure of Damages-Pain, Suffering, and Mental
Anguish- Past and Future— 5
AMI 2218 Punitive Damages

6
3

AMI501 Proximate Cause—Concurring Proximate Cause—Definition

STATEMENT OF THE CASE

■7

7

A. INTRODUCTION/BACKGROUND
WALMART NEGLIGENCE AND PREMISE LIABILITY

8

POLICE INCIDENT REPORT

9

PETITIONER COMPLAINT WAS RECEIVED BY MELANIE HOUCHIN-—10
MELANIE HOUCHIN, REPORTED THE INJURY CLAIM# L4200771--11
MEDICAL TREATMENT AT THE HOSPITAL EMERGENCY -—12-15

1. DAMAGES COMPUTATION

12-13

ARKANSAS LAWS (retailer): Duty of Care and Duty Owed to Invitee
Duty Owed By The Owner----------------13
SUMMARY OF THE ARGUMENT:
15
PETITIONER HAS PRIMA FACIE CASE
PROXIMATE CAUSE

16-20
18-20

PREPONDERANCE OF EVIDENCE

20-21,27

AMI202-Meaning of Burden of Proof and Preponderance of the Evidence—ii
Wal-Mart Stores Arkansas, LLC. Failed to Preserve Evidence—23-24
iii

SPOLIATION OF EVIDENCE

24-27

THE MISCARRIAGE OF JUSTICE
C. THE IRREGULARITIES OF THE PROCEEDING:

30

THE FIALURE BY RESPONDENT TO CALL ITS WITNESS

30-31

MISCONDUCTS

-31-33

THE DISRUPTIONS AND DISTURBANCES
MAL-FUNCTIONS BY THE FEDERAL COURT REPORTER

STANDARD OF REVIEW
A. Substantial Evidence
THE DISTRICT COURT ABUSE OF DISCRETION-

REASONS FOR GRANTING THE WRIT
CONCLUSION-----

33-34
34-37

■37
37

•38

39
40

INDEX TO APPENDICES
APPENDIX-A February 06, 2020, JUDGMENT -EIGHT CIRCUIT COURT OF
APPEALS (1 page)
APPENDIX -A1 February 06, 2020, PER CURIAM OPINION UNPUBLISHEDEIGHT
CIRCUIT COURT OF APPEAL 1 (2 pages)

APPENDIX- A2 MARCH 13, 2020- ORDER-EIGHT CIRCUIT COURT OF APPEALSPETITION FOR PANEL HEARING/ ENBAC HEARING, DENIED.
APPENDIX -A3 MARCH 29,2019 TO MARCH 03, 2020- COPY OF FULL DOCKET
REPORT OF EIGHT CIRCUIT COURT OF APPEALS, CASE 19-1674 (15 PAGES)
IV

APPENDIX-B FEBRUARY 22,2019- JUDGMENT- WESTERN DISTRICT COURT OF
ARKANSAS, FAYETTEVILLE DIVISION- (lpage)
APPENDIX-B 1 FEBRUARY 22,2019 ORDER ON JURY VERDICT (2 PAGES)
APPENDIX-B2 MARCH 27,2019 OPINION AND ORDER (3 PAGES)
APPENDIX-B3 APRIL 10,2019, MEMORANDUM OPINION AND ORDER (13 PAGES)
APPENDIX- B4 NOVEMBER 27,2017 TO JUNE 14,2019- COPY OF FULL DOCKET
REPORT WESTERN DISTRICT COURT OF ARKANSAS, CASE 5:17-CV-5244,
(15 PAGES)
APPENDIX- B5 A COPY OF THE DOCKET ENTRY THAT THE PETITION FOR
A NEW HEARING OR EN BANC HEARING WAS SERVED ON 02/20/2020.
THERE WAS SOME TECHNICAL PROBLEM ON THE COURT
WEBSITE, OTHERWISE IT WOULD HAD BEEN BEFORE 12:00AM
TO THE COURT CLERK ABOUT THE PROBLEM THE FOLLOWING
MORNING ABOUT THE PROBLEM.
APPENDIX- C - DECLARATION FOR CORRECTIONS OF TESTIMONY
TRANSCRIPTSFROM THE JURY TRIAL 20,21,22, 2019 AND MOTION
TO ORDER COURT TO PROVIDE PLAINTIFF A COPY OF THE
ORIGINAL AUDIO RECORDED COURT PROCEEDING WITH ACTUAL
VOICE OF CASE PARTICIPANTS TO CHALLENGE THE ACCURACY AND
ACCOUNTABILITY OF TRANSCRIPTS. PLAINTIFF WILL PAY FOR THE
COST IN OBTAINING THEM. (6 PAGES)
APPENDIX- Cl - OBJECTION TO COURT ORDER OR OPINION ON MARCH 27,2019.
FILED ON APRIL 08,2019. (3 PAGES)
APPENDIX- D- MARCH 25,2019- COPY OF THE NOTICE OF APPEALS (1 PAGE)
APPENDIX- E - MARCH 29,2019- A COPY OF LETTER FROM THE EIGHT CIRCUIT
STATING THAT A NEW “NOTICE OF APPEAL IS NOT REQUIRED UNDER
FEDERAL RULES OF APPELLATE PROCEDURE RULE 4(A)4 TO PERFECT
THE APPEAL AFTER DISPOSITION OF THE OF THE LAST OUTSTANDING
MOTION UNLESS THE PARTY SEEKS REVIEW OF THE RULING ON THE
POST JUDGMENT MOTION”. (1PAGE)
APPENDIX- F COPY OF THE DOCKET ENTRIES- THAT THERE WAS NO MOTION FOR
ANY REVIEW FOR RULING AS NOTED ON THE ENTRIES OF THE COURT
DOCKET THE ONLY MOTIONS PENDING WAS MOTION FOR ANEW TRIAL
DATE OF ENTRIES FROM 02/20/2019 TO 06/14/2019, PAGES 11 TO 15.
V

APPENDIX- G INITIAL DISCLOSURE OF MEDICAL HEALTH TREATING
PHYSICIANS AND COMPUTATION OF DAMAGES- SUBMITTED TO
RESPONDENT DURING THE CASE MANAGEMENT HEARING ON
02/14/2018. (7 PAGES)
APPENDIX-G1 MEDICAL RECORD FROM EMERGENCY DEPARTMENT
SILOAM SPRINGS REGIONAL HOSPITAL-11/27/2014 (3 PAGES)
APPENDIX- G2 WAL-MARTS STORES ARKASAS, LLC. CERTIFIED MEDICAL
RECORD OF KRYSTAL MEGAN DELI MA FROM HOLY STREET
PHYSICAL THERAPY. EXHIBITS WM-KD-0174 TOWM-KD-0230
FROM 04/21/15 TO 06/05/15 (19 PAGES)
APPENDIX- G2A WAL-MARTS STORES ARKASAS, LLC. CERTIFIED MEDICAL
RECORD OF KRYSTAL MEGAN DELI MA FROM 3D PHYSICAL THERAPY
EXHIBITS WM-KD-0174 TO WM-KD-0230, AMOUNT $150.00
FROM 2/8/18 TO 3/6/18 (6 PAGES)
APPENDIX- G3 WALGREENS PHARMACY MEDICATION REFILL INFORMATION
AND RECEIPTS AND DRUG USE INFORMATION FROM 12/03/2014 TO 10/19/2018
(26 PAGES)
APPENDIX- G4 HEALTH RECORD- DOCTOR’S VISITS FOR KRYSTAL M. DELIMA
FROM 06/30/2014 (4 PAGES)
APPENDIX- G5 HEALTH RECORD - PROCEDURES FOR KRYSTAL M. DELIMA
FROM 06/30/2014 TO 12/19/2018 (7 PAGES)
APPENDIX-G6 HEALTH RECORD- DIAGNOSIS FOR KRYSTAL M. DELIMA
FROM 06/30/2014 TO 12/19/2018 (3 PAGES)
APPENDIX- G7 HEALTH RECORD -MEDICATIONS FOR KRYSTAL M. DELIMA
FROM 06/04/2014 TO 12/07/2018 (5 PAGES)
APPENDIX-G8 CERVICALGIA-OVERVIEW OF CAUSES, SYMPTOMS (1 PAGE)
APPENDIX-G9 MYALGIA- CAUSES AND SYMPTOMS (2 PAGES)
APPENDIX-G10 LIST OF PHARMACY- (1 PAGE)
APPENDIX-G 11 MEDICAL RECORD INTEGRIS GROVE HOSPITAL
EMERGENCY TREATMENT ON 10/16/2018. MEDICAL COMPLICATION AND
MEDICAL AGRAVATION. EXHIBIT (12 PAGES)
vi

APPENDIX-G12 MEDICAL RECORD FROM KANSAS MEDICAL CLINIC
OF PETITIONER’S DOCTOR’S VISIT WITH DR. PUMMIL RANDOM DATES:
12/29/2017-EXHIBITS 590005-590006=2 PAGES,
03/22/2018 EXHIBITS 590001-590002=2 PAGES, (TOTAL OF 4 PAGES)
APPENDIX-G 13- MEDICAL RECORD FROM KANSAS MEDICAL CLINIC OF
PETITIONER’S DOCTOR’S VISIT WITH DDR. PUMMIL ON 10/17/2018,
EXHIBIT 19=1 PAGE, DR. PUMMIL’S REFERRAL DUE HEART MURMURMEDICAL COMPLICATIONS EXHIBIT590023 TO 590025=4 PAGES.
(TOTAL OF 5 PAGES)
APPENDIX- G14 MEDICAL RECORD FROM NORTHEASTERN HOSPITAL HEALTH
SYSTEM-12/19/2018- ECHO REPORT HEART: MURMUR (3 PAGES)
APPENDIX-G 15 FLEXERIL
APPENDIX-G 16 CHLORZOXAZONE 500 MG TABLETS- DRUG COMMON USE
AND SIDE EFFECTS / PRESCRIPTION INFORMATION. (1PAGE)
APPENDIX-G 17 CYCLOBENZAPRINE 5 MG TABLETS- DRUG COMMON USE
AND SIDE EFFECTS / PRESCRIPTION INFORMATION. (1PAGE)
APPENDIX-G 18 GABAPENTIN 100MG CAPSULES- DRUG COMMON USE
AND SIDE EFFECTS / PRESCRIPTION INFORMATION. (1PAGE)
APPENDIX-G19 KETOROLAC 10 MG TABLETS- DRUG COMMON USE
AND SIDE EFFECTS / PRESCRIPTION INFORMATION. (1PAGE)
APPENDIX-G20 TRAMADOL 50MG TABLETS- DRUG COMMON USE
AND SIDE EFFECTS / PRESCRIPTION INFORMATION. (1PAGE)
APPENDIX-G21 TIZANIDINE 4MG TABLETS- DRUG COMMON USE
AND SIDE EFFECTS / PRESCRIPTION INFORMATION. (1PAGE)
APPENDIX-G22 TRAZODONE 50MG TABLETS- DRUG COMMON USE
AND SIDE EFFECTS / PRESCRIPTION INFORMATION. (1PAGE)
APPENDIX-H WAL-MART STORES ARKANSAS, LLC.’s EXHIBIT 9 CERTIFIED
MEDICAL RECORD OF KRYSTAL MEGAN DELIMA FROM CHRISTIAN
MEDICAL CLINIC FROM 01/17/2008 TO 03/02/2017.
EXHIBITS: WM-KD-0231 TO WM-KD-0254. (24 PAGES).
vii

APPENDIX-H1 WAL-MART STORES ARKANSAS, LLC.’s EXHIBITS 11 ON KRYSTAL
MEGAN DELIMA’S PRIOR AND SUBSEQUENT CERTIFIED MEDICAL RECORD
FROM SILOAM SPRINGS INTERNAL MEDICINE FROM 06/30/2014 TO 12/03/2014
AGRAVATED MEDICAL CONDITION EXHIBITS: WM-KD-0261 TO WM-KD-0274.
(14 PAGES).
APPENDIX-H2 WAL-MART STORES ARKANSAS, LLC.’s EXHIBITS 7 CERTIFIED
MEDICAL RECORD OF KRYSTAL MEGAN DELIMA FROM SILOAM SPRINGS
REGIONAL HOSPITAL- EMERGENCY DEPARTMENT ON THE DATE OF INJURY,
11/27/2014, EXHIBITS: WM-KD-0077 AND WM-KD-0088 TO WM-KD-0104.(18 PAGES)
APPENDIX-H3 WAL-MART STORES ARKANSAS, LLC.’s EXHIBITS 7. CERTIFIED
MEDICAL RECORD OF KRYSTAL MEGAN DELIMA FROM SILOAM
SPRINGS REGIONAL HOSPITAL- EMERGENCY AND HOSPITALIZED FOR 3.
DAYS SUBSEQUENT TREATMENT ON 02/12/2017 UNTIL 02/14/2017,
AGRAVATED MEDICAL CONDITION- ACUTE PANCREATIS. EXHIBITS:
WM-KD-0133 TO WM-KD-0147 (15 PAGES)
APPENDIX-H4 WAL-MART STORES ARKANSAS, LLC.’s EXHIBITS 6. CERTIFIED
MEDICAL RECORD OF KRYSTAL MEGAN DELIMA FROM KANSAS
MEDICAL CLINIC (PART OF COMMUNITY PHYSICIANS GROUP)
FOR 1 YEARS AND 3 MONTHS WITH DR. ROY CLEMENS.
RANDOMLY SELECTED FOLLOWING DATES:
02/01/2016- WM-KD-0013 TO WM-KD-0016= 4 PAGES
12/21/2015- WM-KD-0019 TO WM-KD-0021= 3 PAGES
11/18/2015- WM-KD-0025 TO WM-KD-0027= 3 PAGES
09/08/2015- WM-KD-0037 TO WM-KD-0043=7 PAGES
06/08/2015- WM-KD-0050 TO WM-KD-0052= 3 PAGES
04/21/2015- WM-KD-0053 TO WM-KD-0055= 3 PAGES
01/06/2015- WM-KD-0066 TO WM-KD-0068= 3 PAGES
12/15/2014- WM-KD-0069 TO WM-KD-0073= 5 PAGES
TOTAL= 32 PAGES
APPENDIX-H5- MEDICAL RECORD OF KRYSTAL MEGAN DELIMA FROM INTEGRIS
GROVE HOSPITAL EMERGENCY DEPARTMENT 10/15/2018
APPENDIX-1 A COPY OF THE DOCKET ENRIES FROM EIGHT CIRCUIT COUT OF
THE APPEAL PROGRESS, Entry dates from: 3/29/2019 to 06/04/2019.
(1 Page)
APPENDIX- II COPY OF PERSONAL HEALTH STATEMENT OF BLUE CROSS
BLUE SHIELD PAYMENT DETAIL FROM 11/27/2014 TO 02/28/2015. (68 PAGES)
vm

APPENDIX-12 COPY OF PERSONAL HEALTH STATEMENT OF BLUE CROSS
BLUE SHIELD PAYMENT DETAIL FROM 10/22/2016 TO 11/05/2016. (3 PAGES)

APPENDIX-13 COPY OF PERSONAL HEALTH STATEMENT OF BLUE CROSS
BLUE SHIELD PAYMENT DETAIL AND FROM 03/26/2016 TO 04/09/2016.
(3 PAGES)
APPENDIX-12- MEDICAL EXPENSES- CONTINUING TREATMENT/ MEDICAL
COMPLICATIONS/MEDICAL AGRAVATION.
EXHIBITS: WM-KD-0328 TO WK-KD-0344
AMOUNT PAID BY PETITIONER, $2,588 INCLUDING COST
PAID INSURANCE BLUE CROSS BLUE SHIELD
APPENDIX-13 WALGREENS PRESCRIPTIONS MEDICINE PAYMENTS
FROM 02/14/2017 TO 08/10/2017 AMOUNTS 318.00
(13 PAGES)
APPENDIX- J1 WALMART CLAIM (2 pages, JOINT EXHIBIT # 1)
APPENDIX- J2. CUSTOMER COMPLAINT (1 page, JOINT EXHIBIT # 2

APPENDIX- J3

POLICE INCIDENT REPORT ( 4 pages, JOINT EXHIBIT #3)

APPENDIX - J3A POLICE INCIDENT REPORT (WM-KD-0008/ page4)
APPENDIX- J4 CUSTOMER EVIDENCE COLLECTION SHEET(1 page, JOINT EXHIBIT4
APPENDIX- J7

WALMART PURCHASE RECEIPT OF, JOINT EXHIBIT # 6)

APPENDIX- J9 WALMART ADVERTISEMENT WITH SCHEDULES FOR 6:00& 8:00PM
APPENDIX- J10

WALMART ADVERTISEMENT, (JOINT EXHIBIT #10)

APPENDIX-J12 OSHA (OCCUPATIONAL SAFETY HEALTH ADMINISTRATION)
CROWD MANAGEMENT GUIDELINE
APPENDIX J13 WALMART STORE LAY-OUT 11/27/2014 ( JOINT EXHIBIT# 5)
APPENDIX -J14 RESPONDENT’S WITNESS, CHRISTOPHER MILAM’S
TRANSCRIPT EXCERPT TESTIMON: DIVULGING THE TRUTH BEHIND
JOINT EXHIBIT #5A DURING JURY TRIAL 02/22/2019, page 58 line 1-25
NOTE: EXHIBIT 5A IS THE POSTER VERSION OF EXHIBIT 5 USED DURING
THE TRIAL
ix

APPENDIX- J14A RESPONDENT’S WITNESS, CHRISTOPHER MILAM’S
TRANSCRIPT EXCERPT TESTIMON: DIVULGING THE TRUTH BEHIND
JOINT EXHIBIT 5A 02/22/2019 PAGE 58 LINE 4-25.
NOTE: EXHIBIT 5A IS THE POSTER VERSION OF EXHIBIT 5 USED DURING
THE TRIAL.
APPENDIX- J14B RESPONDENT’S WITNESS, CHRISTOPHER MILAM’S
TRANSCRIPT EXCERPT TESTIMON: DIVULGING THE TRUTH BEHIND
JOINT EXHIBIT 5A 02/22/2019 PAGE 59, LINE 1-25.
NOTE: EXHIBIT 5A IS THE POSTER VERSION OF EXHIBIT 5 USED DURING
THE TRIAL.
APENDIX- J15 RESPONDENT’S WITNESS, POLICE TIMOTHY FILBECK TRANSCRIPT
EXCERPT TESIMONY-NO QUE LINES WERE ETABLISHED DURING SALESEVENT ON NOVEMBER 27, 2014 AT 8:00PM. pages: 1,10,11,13,14,15,16, and 17.
APPENDIX J15A-COURT ALSO CONFIRMED THAT NO QUE LINES WERE ESTABLISHED
page 17, line 6,7,8,9,10,11,12, and 13
APPENDIX J15B - RESPONDENT’S WITNESS, CHRISTOPHER MILAM’S
TRANSCRIPT EXCERPT TESTIMONY: NO QUE LINES WERE ESTABLISHED
DURING THE SALE OPENING ON NOVEMEBR 27, 2014
JOINT EXHIBIT #5A 02/22/2019. THE COURT CONFIRMED NO QUE LINE
WERE ESTABLISHED. PAGE 62, LINE 12,13,14,15.
PAGE 59, LINE 1-25.
APPENDIX-J16 TRANSCRIPT EXCERPTS OF RESPONDENT’S WITNESS, POLICE
OFFICER TIMOTHY FILBECK. PAGES 1 TO 24.
APPENDIX -J19 JOINT INITIAL DISCLOSURE 26(F) RESPONDENT AGREED TO
PRODUCE THE SURVEILLNACE VIDEO OF THE INCIDENT PAGE 5
APPENDIX- J19A JOINT INITIAL DISCLOSURE 26(F) RESPONDENT AGREED TO
PRODUCE THE SURVEILLNACE VIDEO OF THE INCIDENT PAGE 6
T
APPENDIX-J20

PLAINTIFF’S WITNESS, ZENITH THOMPSON, AFFIDAVIT (5 PAGES)

APPENDIX-J22 -WM-KD-0001 IMAGE OF SURVEILLANCE RECORDED VIDO FROM
PREPARED BY RESPONDENT’S COUSEL
MITCHELL, WILLIAMS, SELIG, GATES,& WOODYARD, P.LL.C.
APPENDIX -J24 -PETITIONER’S OBJECTION TO THE VIDEO WM-KD-0001
NOT COMPLIANCE TO RULES OF EVIDENCE REQUIREMENTS MARCH 5, 2018.
APPENDIX -J25 FOLLOW UP REMINDER FOR THE RESPONDENT’S REQUIREMENT OF
DOCUMENTS FOR DISCOVERY (GMAIL COMMUNICATION MARCH 15, 2018)

x

L.

APPENDIX-J26 - PETITIONER’S EMAIL INQUIRING ABOUT THE FACTS OF WALMART
STORE LAY-OUT JOINT EXHIBIT 5A NOVEMBER 27,2014 8:00PM 2014OF MERCHANDISE
SAMSUNG GALAXY TABLET LOCATION COULD NOT BE FOUND?
RESPONDENT’S COUNSEL HAD THE ANSWER WITH MISLEADING AND
UNLCEAR STATEMENT AND HIDE THE TRUTH. (GMAIL COMMUNICATION)! 1/28/2018
APPENDIX-J27 FOLLOW-UP EMAIL ABOUT THE MISSING SAMSUNG GALAXY TABLET
LOCATION ON THE JOINT EXHIBIT 5A?
RESPONDENT’S COUNSEL ANSWERED INSUFFICIENTLY WITH MISLEADING
INFORMATION (GMAIL COMMUNICATION) 12/7/2018
APPENDIX -J28 RESPONDENT’S FINAL PRE-TRIAL DISCLOSURE 01/15/2019
DID NOT SPECIFY THE PARTICULAR IDENTIFICATION AND THE TITLE
AND DESCRIPTION OF THE EXHIBITS TO BE OFFERED.
EXHIBIT TO BE OFFERED- UNFAIR FOR PREPARATION FOR TRIAL
RESPONDENT HAD NO POTENTIAL EVIDENCE FOR ITS DEFENSE
APPENDIX- J28A RESPONDENT’S FINAL PRE-TRIAL DISCLOSURE 01/15/2019
LISTED MELANIE HOUCH1N TO APPEAR TO TESTIFY
EXHIBIT TO BE OFFERED- UNFAIR FOR PREPARATION FOR TRIAL
APPENDIX- J29 RESPONDENT’S WITNESS MELANIE HOUCHIN NOTICE TO APPEAR
TO TESTIFY AT JURY TRIAL 02/20-21/2019 FILED AT THE COURT ON
FEBRUARY 14, 2019.
APPENDIX - J30 RESPONDENT’S WITNESS MELANIE HOUCHIN SUBPOENA TO APPEAR
TO TESTIFY AT JURY TRIAL ON 02/20-22/2018WAS FILED AT THE COURT ON
FEBRUARY 14, 2019
APPENDIX- J31 CERTIFICATE OF SERVICE-MELANIE HOUCHIN-FEBRUARY 14, 2019
TO WALMART STORE LOCATION/ADDRESS WHERE SHE WORKED.
APPENDIX -J32 SERVED RECIEPT FOR SUBPOENA AND NOTIE TO APPEAR, ON MELANIE
HOUCHIN RECEIVED ON 02/11/ 2019 AND RECEIVED ON 02/12/2019
APPENDIX- J33 PETITIONER DEMOSTRATIVE PRESENTATION EMAIL ABOUT THE
FOLLOWING EXHIBITS TO BE PRESENTED AT THE TRIAL ON 02/20-22.2019
APPENDIX-J34 PETITIONER DEMOSTRATIVE PRESENTATION LIST OF THE
FOLLOWING EXHIBITS TO BE PRESENTED AT THE TRIAL ON 02/20-22.2019
APPENDIX- J35 PETITIONER LIST OF EXHIBITS AND MOST WERE NOT INCLUDED IN THE
TRIAL DUE TO IRREGULARITIES ON 02/20-22/ 2019
APPENDIX -J36 COPY OF THE CERTIFIED MAIL WITH RETURNED RECIEPT AND WAS
RECEIVED ON JUNE 5, 2019 BY ADMINISTRATIVE OFFICE.
APPENDIX -J36A COPY OF THE COURT REPORTER COMPLAINT, 05/22/2019, SENT TO
ADMINISTRATIVE OFFICE OF THE UNITED STATES COURTS
ONE COLUMBUS CIRCLE, NE WASHINGTON D.C. 20544. (16 Pages)
xi

APPENDIX -J36B COPY EMAIL TO DANA HAYDEN, COURT REPORTER TRANSCRIPTS
PAID BY PETITIONER FOR ALL 3 WITNESS AND WAS SEND AS PDF FILE
TO PETITIONER THROUGH EMAIL ON MARCH 19, 2019.
APPENDIX -J36B PETITIONER’S EMAIL TO COURT REPORTER, DANA HAYDEN
FOR PAYMENT OF ALL THE TRANSCRIPTS ON MARCH 19, 2019
CHRISTOPHER MILAM , ZENITH THOMPSON, TIMOTHY FILBECK
APPENDIX- J37 PLAINTIFF SUPPLEMENTAL PRE-TRIAL DISCLOSURE- ABOUT WRONG
FILE MARK BY COURT CLERK. EMAILED JANUARY 28, 2019
APPENDIX- J38 PETITIONER EMAIL TO COURT ABOUT AMI2203-MEASURE OF DAMAGE
AGGRAVATION OF PRE-EXISTING CONDITION BE ADDED. 02/20/2019
APPENDIX -J39 PETITIONER PROPOSED JURY INSTRUCTIONS IN COMPLIANCE TO COURT
REQUIREMENTS FOR THE PREPARATION OF THE TRIAL 02/20-22/2019
APPENDIX -J40 PETITIONER’S OBJECTION ABOUT WALMART’S EXHIBIT
RESPONDENT HAS NOT BEEN SPECIFIC AND MAKING THE PETITIONER
BLIND TO WHAT RESPONDENT WILL OFFER. FEBRUARY 15, 2019
APPENDIX - J41 PETITIONER’S EMAIL TO COURT TO RESERVE SPOELIATION JURY
INSTRUCTIONS AND VERDICT FORM OPEN. FEBRUARY 20,2019
APPENDIX -J42 PETITIONER’S ERRATA ABOUT DEPOSITION CORRECTION BECAUSE THE
TRANSCRIBER DROPPED A LOT OF WORDS AND PUT DIFFERENT WORDS
INSTEAD. THE DEPOSITION WAS CONDUCTED AT THE RESPONDENT
COUNSEL’S OFFICE AND THE TRANSCRIBER DROPPED A LOT OF WORDS
OR WORDS WERE DIFFERENT THAN WHAT PETITIONER STATED
THIS ERRATA SHEET MADE THE NECESSARY CORRECTION TO MAKE
THE STATEMENT CLEAR OR PUT BACK THE WORDS TO CLARIFY, AND
COMPLETE THE MISSING WORDS.

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Ben M. Hogan & Co. v. Krug, 234 Ark. 280,285, 351 S.W.2d 451, 454-55 (1961),

■4

Brooks v. Wal-Mart Stores, Inc., 535 SE 2d 55 - 2000 - NC: Court of Appeals

13

XU

Bruns v. Bruns, 290 Ark. 347, 350, 719 S.W.2d 691, 693 (1986)

6

Castellaw v. Blanchard, 106 Ga. 97 (31 SE 801);

i

Cachil Dehe Band ofWintun Indians of the
Colusa Indian Cmty. v. California,
618 F.3d 1066,1084 (9th Cir. 2010)

■38

Chang v. United States,
327 F.3d 911,925 (9th Cir. 2003)

38

Chicago, R.I. & P. Ry. Co. v. Caple, 207 Ark. 52, 179 S.W.2d 151 (1944).
Collier v. Citizens Coach Co.,
231 Ark. 489, 330 S.W.2d 7422

5

16

Ethyl Corp. v. Johnson,

315 Ark. 107; 865 S.W.2d 282 (1993),

17

Gebhart v. SEC,
595 F.3d 1034,1043 (9th Cir. 2010)

37

Gilmer v. Walt Disney Co.,
915 F. Supp. 1001 (W.D. Ark 1996)

14

Goffv. Harold Ives Trucking Company, Inc.,
27 S.W.3d 387, 391 (Ark. 2000)
Harrison v. Union Pac. R.R. Co., 2002 U.S. Dist. LEXIS 29004, *4 (E.D. Ark. 2002).

22

Hawaii Stevedores, Inc. v. Ogawa,
608 F.3d 642,652 (9th Cir. 2010)

■38

xm

Howard ex rel. Wolff v. Barnhart,
341 F.3d 1006,1011 (9th Cir. 2003)------

■37, 38

Hyde & Drath v. Baker,
24 F.3d 1162.1171 (9th Cir. 1994)
Int’l Union of Painter & Allied Trades v. J & R Flooring, Inc.,
656 F.3d 860, 865 (9th Cir. 2011)

■37

JeffD. v. Otter,
643 f.3d 278 (9th Cir. 2011)

38

Johnson v. Rockwell Automation, Inc., 2009 Ark. 241, 308 S.W.3d 135

14

Kubik v. Igleheart, 280 Ark. 310, 311-12, 657 S.W.2d 545, 546 (1983)
Louis Sw. Ry. Co. v. Pennington, 261 Ark. 650, 662, 553 S.W.2d 436, 441 (1977)—

Marlar v. Daniel.
368 Ark. 505, 508, 247 S.W.3d 473,476 (2007).

13,22

Mayes v. Massanari,
276 F.3d 453,459 (9th Cir. 2001)

•37

Midwest Buslines, Inc. v. Johnson, 291 Ark. 304, 305, 724 S.W.2d 453, 454 (1987).-6

Oregon Natural Res. Council v. Marsh,
52 F.3d 1485, 1492 (9th Cir. 1995)

38

Rabkin v. Oregon Health Sciences Univ.,
350 F.3d 967, 977 (9th Cir. 2003)—

38
xiv

Richardson v. Perales, 402 U.S. 389, 401 (1971)——----Satterfield v. Rebsamen Ford, Inc,, 253 Ark. 181,485 S.W.2d---- ---192 (1972).

----------- 37
----------14

Stein v. Lukas, 308 Ark. 74,823 S.W.2d 832 (1992),

14
23

Smith v. United States, 128 F. Supp. 2d 1227,1233-34 (E.D. Ark. 20
Wilson v. J. Wade Quinn Co., Inc., 330 Ark. 306,308,952---------------S.W.2d 167,169 (1997)
Yam's Inc. v. Moore, 319 Ark. Ill, 116-17, 890 S.W.2d 246, 249 (1994)

13
6

Other Authorities:
Judiciary Policy, § 520 Transcript Format

36

Judiciary Policy, § Policy-§ 520.46.10

36
34-35

Judiciary Policy § 520.46.10 (c)

IN THE
SUPREME COURT OF THE UNITED STATES
KRYSTAL MEGAN DELIMA, Petitioner,
v.
WAL-MART STORES ARKANSAS, LLC., Respondent.
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

xv

aa

OPINIONS BELOW
The Opinion of the United States Eight Circuit Court of Appeals-JUDGMENT, appears in Appendix A,
and its reported Unpublished PER CURIAM opinion of the Court of Appeals on Appendix Al,
ORDER appears in Appendix A2. The United States District Court of Western District of Arkansas,
Fayetteville Division, JUDGMENT, appears in Appendix B, ORDER OF JURY VERDICT, appears in
Appendix Bl, OPINION AND ORDER, appears in B2, MEMORANDUM OPINION AND ORDER,
appears in Appendix B3.
JURISDICTION
The date on which the United States Court of Appeals decided my case was on
FEBRUARY 06, 2020. JUDGMENT appears on Appendix A.
FEBRUARY 06, 2020 PER CURIAM OPINION FILED - THE COURT: Bobby E. Shepherd,
David R. Stras and Jonathan A. Kobes (UNPUBLISHED) [4878548] [19-1674] (CRJ) [Entered:
02/06/2020 08:23 AM]. Appear on Appendix -Al
MARCH 13, 2020- PETITION FOR HEARING AND ENBAC HEARING was Denied, appears
on Appendix- A2
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
Ark. Code Ann. § 16-56-105. To read: “All actions founded on any obligation or
liability not in writing, expressed or implied, shall be commenced within three (3)
years after the cause of action accrues.”
Ark. Code Ann. § 16-56-105. To read: “This statute has been interpreted to include
actions Ark. Code Ann. §§ 18-11-301 et seq.based on torts, including negligence,
that are not otherwise covered by a specific statute of limitations. Shelter Ins. Co. v.
Arnold, 57 Ark. App. 8, 12-13, 940 S.W.2d 505, 506-07 (1997).
Amendment XIV -States that,

“No state shall make or enforce any law which shall abridge the

privileges or immunities of citizens of the United States; nor shall any state deprive any person of life,

Page 1 of 37

V

liberty, or property, without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.”

AMI 1104 - Duty Owed to Invitee-

An owner owes no duty of care to keep premises safe for entry or use by others for recreational
purposes or to give any warning of a dangerous condition, use, structure or activity on the
premises to persons entering for recreational purposes without charge (admission fee) unless the
owner maliciously (but not merely negligently) fails to guard or warn against an ultra-hazardous
condition or activity actually known to the owner to be dangerous. Ark. Code Ann. §§ 18-11-301
et seq.

AMI 106 Effect of Intentional Destruction or Suppression of Evidence

If you find that a party intentionally [destroyed][or][lost][or][ suppressed]{description of item) with
knowledge that [it][its contents] may be material to a [pending][potential] claim, you may draw the
inference that [the (contents of the)(document)(writing)(photograph) ((description of item))] [an
examination of it] would have been unfavorable to that party's [claim][defense]. When I use the term
“material” I mean evidence that could be a substantial factor in evaluating the merit of a claim or
defense in this case.
AMIllOlWillful or Wanton Conduct—Definition

Page 2 of 37

When I use the expression “willful or wanton conduct” I mean a course of action which shows an
actual or deliberate intention to harm or which, if not intentional, shows an utter indifference to
or conscious disregard for the safety of others.

AMI 202 Burden of Proof and Preponderance of the Evidence
A party who has the burden of proof on a proposition must establish it by a preponderance of
the evidence, unless the proposition is so established by other proof in the case [or unless a
different standard of proof is required by another instruction], “Preponderance of the evidence”
means the greater weight of evidence. The greater weight of evidence is not necessarily
established by the greater number of witnesses testifying to any fact or state of facts. It is the
evidence which, when weighed with that opposed to it, has more convincing force and is more
probably true and accurate. If, upon any issue in the case, the evidence appears to be equally
balanced, or if you cannot say upon which side it weighs heavier, you must resolve that question
against the party who has the burden of proving it.
AMI501 Proximate Cause—Concurring Proximate Cause—Definition
Proximate cause exists when a negligent act leads to damages in a natural and continuous
sequence, unbroken by any efficient intervening cause. Kubik v. Igleheart, 280 Ark. 310, 311-12,
657 S.W.2d 545, 546 (1983). For an injury to be the natural and probable consequence of an act,
the consequence of the act might and ought to have been foreseen by the defendant as likely to
flow from that act and the act must, in a natural and continuous sequence unbroken by any new
cause, operate as the cause of injury. Ben M. Hogan & Co. v. Krug, 234 Ark. 280, 285, 351
S.W.2d 451, 454-55 (1961). Foreseeability is an element in determining whether a person is

Page 3 of 37

negligent and has nothing to do with proximate cause. Negligence must proximately cause a
given result in order to justify a finding of negligence or contributory negligence, but negligence
and proximate cause are two separate and independent legal concepts. Collier v. Citizens Coach
Co., 231 Ark. 489, 492, 330 S.W.2d 74, 76 (1959). The question of proximate cause, given
negligence, is more often than not a question of fact, to be determined by viewing attendant
circumstances, and proximate cause may be shown by circumstantial evidence. St. Louis Sw. Ry.
Co. v. Pennington, 261 Ark. 650, 662, 553 S.W.2d 436, 441 (1977).

AMI 1110 Duty Owed bv Owner or Occupier of Land—Injuries or Damages Off PremisesIt is the duty of an [owner][occupier] of land to protect [persons][and][property] on
land of another from damages resulting from [a structure][an artificial
condition] upon [his][her] land if
(A) [he][she] knows, or should know, of an unreasonable danger created by
that [structure][condition] and
[(B) [he][she] knows, or should know, that the danger exists without the consent of those
affected by it, and]
(C) [he][she] fails, after having a reasonable opportunity, to eliminate the danger or
otherwise to protect such [persons][or][property] against it.A violation of this duty is
negligence.

AMI 2203 Measure of Damages—Aggravation of Pre-existing Condition
In this regard you should consider the full extent of any injury sustained, even though the degree
of injury is found by you to have proximately resulted from the aggravation of a [condition]

Page 4 of 37

[disease] that already existed and that predisposed to injury to a greater extent than another
person. [However, you may not award [him][her] damages for any (pain)(mental anguish)
(disability) ((other appropriate element of damage)) which [he][she] would have suffered even
though the accident had not occurred.

AMI 2204 Measure of Damages—Medical Expense—Past and Future
The reasonable expense of any necessary medical care, treatment and services received,
[including (transportation)(and)(board)(and)(lodging) expenses necessarily incurred in securing
such care, treatment, or services] [and the present value of such expense reasonably certain to be
required in the future..
AMI 2205 Measure of Damages-Pain. Suffering, and Mental Anguish—Past and Future
In an action based on negligence, plaintiff may be entitled to recover damages for mental anguish as well
as for physical pain and suffering; and mental anguish may be inferred from the degree of physical pain.
Chicago, R.I. & P. Ry. Co. v. Caple, 207 Ark. 52, 179 S.W.2d 151 (1944). Humiliation and
embarrassment are included within the damage element of mental anguish, and it is error to instruct the
jury that they are separate elements of recovery. Yam's Inc. v. Moore, 319 Ark. Ill, 116-17, 890
S.W.2d 246, 249 (1994); Bruns v. Bruns, 290 Ark. 347, 350, 719 S.W.2d 691, 693 (1986) (holding it
error to so instruct the jury and noting the Per Curiam Order of April 19, 1965). Plaintiff may recover
for mental anguish suffered in the past and reasonably certain to be experienced in the future Bill for
mental anguish does not require physical harm. Midwest Buslines, Inc. v. Johnson, 291 Ark. 304, 305,
724 S.W.2d 453, 454 (1987).
AMI 2218 Punitive Damages
In addition to compensatory damages for any actual loss that (plaintiff) may have

Page 5 of 37

sustained, [he][she] asks for punitive damages from (defendant). Punitive
damages may be imposed to punish a wrongdoer and to deter the wrongdoer and
others from similar conduct. In order to recover punitive damages from (defendant),
(plaintiff) has the burden of proving by clear and convincing evidence [either, first]:
[That (defendant) knew or ought to have known, in the light of the surrounding circumstances, that [his]
[her][its] conduct would naturally and probably result in (injury)]damage) and that [he][she]
[it] continued such conduct (with malice or) in reckless disregard of the consequences from which malice
may be inferred] [Or, second] [That (defendant) intentionally pursued a course of conduct for the
purpose of causing (injury)]damage)] [Or both]. [In arriving at the amount of punitive damages you may
consider the financial condition of (defendant), as shown by the evidence.]
“Clear and convincing evidence” is proof that enables you without hesitation to reach a firm conviction
that the allegation is true. You are not required to assess punitive damages against (defendant) but you
may do so if justified by the evidence. [You may consider an award of punitive damages only if you
found that (plaintiff) is entitled to recover compensatory damages.]

STATEMENT OF THE CASE
A. BACKGROUND:
On November 27, 2014, the Respondent, Wal-Mart Store Arkansas, LLC., conducted
two scheduled Sales-Events for their Black Friday Sales, 6:00pm and 8:00pm as advertised by the
Respondent, featuring various electronics such as IPAD Mini, Samsung Galaxy Tablets, and other items.
Petitioner and daughter, responded to the advertised sales and attended two sales events at Walmart Super
Center at 2901 E. Highway 412 Siloam Springs Arkansas 72761. The first sales event at 6:00pm, Walmart

Page 6 of 37

implemented crowd control but on the second scheduled sales event at 8:00pm, failed to implement crowd
control and did not provide guidance and left the crowd without proper warning and instructions to avoid
potential danger due to unorganized and unsafe premise.
At approximately 7:30 pm, a female assistant manager, Melanie Houchin and some Walmart staffs came
by and surveyed the crowd of customers at the Samsung Galaxy tablet location. They stood behind the
display racks and were walking back and forth. But did not do anything with customers situation at the
Samsung Galaxy tablet location. At approximately, 7:45pm, two police officers C. Jackson and T. Hall,
came and stood in front the of Samsung Galaxy tablet rack, before 8:00pm. Petitioner’s daughter, Zenith
Thompson and Petitioner also stood there before 8:00pm. Zenith Thompson went to check other for sale
items displayed near the Samsung Galaxy tablet rack before 8:00pm.
1. WALMART’S NEGLIGENCE AND PREMISE LIABILITY
Respondent conducted two Black Friday Sales-Events: at 6:00pm and at 8:00pm November 27, 2014,
(see Appendix J-10, Walmart Advertisement for Samsung Galaxy Tablet. See APPENDIX J10 (JOINT
EXHIBIT #10). There were two hours between two sales events but Respondent had omitted the crowd
control it implemented during 6:00pm and without giving proper warning to customers including
Petitioner for the preparation of the upcoming next sales-event at 8:00pm, for the advertised Samsung
Galaxy tablet that was on sale for special reduced price. Prior to the opening of the sales at 8:00pm,
Respondent had left the crowd to build up on the middle of main aisle in between grocery aisle and
apparel aisle in front of the Samsung Galaxy Tablet near the main entrance. The crowd of neglected
customers were blocking the traffic of incoming customers and Walmart staff did not come to manage
lines. At approximately 7:30 pm, Melanie Houchin and as well as other staffs, saw Petitioner and crowd
of customers standing in front of the Samsung Galaxy tablet rack standing for approximately almost two

Page 7 of 37

hours waiting for more guidance by the management. At Approximately 7:45 pm, two police officers
came: Officer C. Jackson and Deputy T. Hall and stood on the Crowd Line, lying parallel in front of
Samsung Galaxy rack and other sale items but it not a customer line. The crowd line was a buffer space to
serve as boundary for customer and the merchandise. See Appendix J3A, (JOINT EXHIBIT 3, page4,
paragraph 2). They stood in front of Petitioner prior to the opening of the sale and saw the unmanaged
crowd. See also Appendix J 15, page 16, line 19, 20,21,22,23,24,25,25 and page 17, line
1,2,3,4,5,6,7,8,9,10,11,12 and 13. See APPENDIX J-3A (JOINT EXHIBIT 3, POLICE REPORT
page3, also marked as WM-KD-0008 paragraph 2 ). Petitioner’s daughter, Zenith Thompson, who came
together with Petitioner to participate both two sales-events, came to Samsung Galaxy tablet location to
visit Petitioner approximately 7:45pm, and before 8:00 pm, left Petitioner to check other items displayed
nearby the Samsung Galaxy Rack, (see APPENDIX J-20,Plaintiff’s Affidavit of Witness, ZENITH
THOMPSON, page 1-4, paragraph 01,02,03,04 and 05 ). Few minutes before 8:00pm, the store manager,
Christopher Milam, came and made an announcement to customers to be “courteous and calm” but that
was all he said, (see Appendix J-3A, Police Incident Report, JOINT EXHIBIT, # 3, Page WM-KD-0008
paragraph 3 and 4. At 8:00pm, he announced that the sale was open. Christopher Milam’s
announcement was like a, “flood gate”, lifted. His announcement had caused the waiting crowd to an
immediate rush forward towards Petitioner’s back and hit Petitioner’s back who was yet standing in front
of the Samsung Galaxy tablet rack, (see Appendix J-3, POLICE INCIDENT REPORT, JOINT
EXHIBIT # 3, page WM-KD-0008, paragraph 3 and 4. Also see Appendix J20, Affidavit of Witness,
Zenith Thompson page 3, paragraph 05. Petitioner’s, head, neck, upper back, middle back, lower back,
shoulder, thighs, legs, arms and hands were injured Petitioner was trapped and crushed with heavy weight
under the crowd of customers and was afraid to die and got pushed towards the Samsung Galaxy tablet

Page 8 of 37

rack and squatted as the customers were reaching the special reduced-price limited items, (see Appendix
-J-3, Police Incident Report, JOINT EXHIBIT #3, page WM-KD-0008, paragraph 4 . Respondent’s
disregard for safety had caused multiple injuries to Petitioner and exposed to imminent danger.
Respondent’s negligence and reckless conducts had breached its duty of care and violated its Duty Owed
to Petitioner as an invitee.
2. THE POLICE INCIDENT REPORTS OF THE INJURY INCIDENT :
Right after the incident, few minutes after 8:00pm, petitioner complained to Police Officer, CPL. Timothy
Filbeck, who saw the incident at the Samsung Galaxy tablet location and reported the incident. Petitioner
showed to the police officer her injured pinky finger and the officer responded and stated that, “Petitioner
came voluntarily and placed herself in front of the crowd”. Police officer statement was like adding insult
to injury. Officer Filbeck, had been hired by Walmart to work for the Black Friday holiday detail, (see
Appendix J-3 page WM-KD, 0008, paragraph 1, Officer Filbeck, did not know what time Petitioner and
daughter arrived to participate the advertised sales-events. Petitioner felt intimidated by the attitude of
officer Filbeck. Petitioner also complained that her back was injured and demanded to complain to
management. Officer CPL. Timothy Filbeck, called the assistant manager, escorted Petitioner to optical
department.
3. PETITIONER’S COMPLAINT WAS RECEIVED

AND SIGNED BY MELANIE

HOUCHIN
The female police officer called the paramedics and Petitioner waited at the optical department. While
there, Petitioner was handed a Customer Complaint form and wrote her complaint and handed it to the
assistant manager, Melanie Houchin, who then received, signed and dated and gave a copy to Petitioner
for her record, (see Appendix J-2, Customer’s Complaint, JOINT EXHIBIT # 2. While there, Zenith

Page 9 of 37

Thompson, heard Ms. Houchin refused to Petitioner’s request to show Petitioner, the footage of the
surveillance video where the injury incident occurred at the Samsung Galaxy tablet location. She heard
Ms. Houchin stating that she could not allow the Petitioner to see the recorded surveillance video but only
Ms. Houchin is allowed, See Appendix_J-20 Zenith Thompson Affidavit, page 4 , paragraph 07.
Petitioner waited for the paramedic to arrive which later found out Respondent will not pay for the
paramedics the lee of approximately more than $1,000.00. The Petitioner could not afford for that
amount, but told the paramedics her daughter will drive her to the nearby emergency, at Siloam Springs
Regional Hospital after she will pay for the purchased items at the cash register.
4. MELANIE HOUCHIN. REPORTED THE INJURY CLAIM # L4200771
On the night of the incident Melanie Houchin, made the report, (see Appendix J-l, WM-KD-0002.
She reported that Petitioner was injured at 8:00pm but did not report the location of the injury. She
also reported that no one had witnessed the incident but reported that the petitioner had a companion.
(see Appendix J-l, page 2 of 2, also marked, WM-KD-0003. Ms. Houchin, did not fill up all the
important details as required on this report: “You must immediately search for and preserve anv and
all information and evidence related to this incident. Please follow the guidelines on the Evidence
Collection Sheet and Document Preservation Direction . Your form has been sent to the claims
division. PLEASE PRINT THIS FORM for your record before returning to main screen”, fsee
Appendix J-l. page 1 of 2 .also marked WM-KD-0002. printed in bold letter on the top of this
document. Ms. Houchin, had lied in her claim form. Ms. Houchin had knowledge of the spoliation of
evidences related to this case. Ms. Houchin was subpoenaed to appear to testily to the jury trial but
failed to appear on February 20-22, 2019 on KRYSTAL MEGAN DELIMA v. WAL-MART
STORES ARKANSAS, LLC.

Page 10 of 37

5. TREATMENTS FOR THE MULTIPLE INJURIES AT THE EMERGENCY:
At approximately after 9:00 pm., Zenith Thompson drove Petitioner to Siloam Springs Regional Hospital,
Emergency and stayed with her all the time during the treatment until Petitioner was discharged close to
midnight on November 27, 2014.
FOLLOWING THE INCIDENT FOR THE MULTIPLE INJURIES AND DAMAGES:
LONG TERM TREATMENTS FOR THE FOLLOWING AFFECTED PARTS OF THE
See attached Exhibits appear on Appendices: G to G-22, H to H5,1,12,13,14,15 and Appendix-11
BODY AND PAIN AND SUFFERINGS DUE TO RESPONDENT’S NEGLIGENCE
BACK PAIN THAT BECAME CHRONIC BACKPAIN.
ARM, SHOULDER, THIGH, AND LEG CRAMS
TINGLING NERVES AND MUSCLE SPASMS
COMPLICATIONS DUE TO EXISTING PRE- MEDICAL CONDITION.
COMPLICATION TO KIDNEY AND OTHER ORGANS DUE TO MORE THAN 3 YEARS OF
TREAMENTS OF PAIN MEDICATIONS/ MANAGEMENT
ON AND OFF TREATMENTS WITH PHYSICAL THERAPIES
EMOTIONAL DISTRESS AND MENTAL ANGUISH
PHYSICAL LIMITATIONS
DEPRIVATIONS FROM SOCIAL ACTIVITIES
TRAUMA
CONTINUING PAIN AND PHYSICAL LIMITATIONS.
LESS ENJOYMENT OF LIFE.
LOSS QUALITY OF LIFE.
GRIEVANCE
Updated Computation:
Medical Bills past and after 2017 not yet included and accruing medical expenses.
Paid by Blue Shield Blue Cross Health Insurance-

$13, 970.0

Note: Defendant has to pay the past medical bill, $13,970.00 to the insurance, Blue
Shield Blue cross that paid the past.
Below are the Adjusted Computation

Future Medical Bills $13,970.00 x 3
Continued Treatment
Loss of Quality life
Page 11 of 37

$41,910.00

$300,000.00

Past Pain and Suffering
Future Pain and Suffering
Punitive Damages
Total Compensatory and Punitive Damages

300,000.00
300,000.00
1.000.000.00
$1.941.910.00

B. Arkansas Laws (retailer): Duty of Care and Duty Owed to Invitee
“A property owner has a duty to exercise ordinary care to maintain the premises in a
reasonably safe condition for the benefit of invitees.” Wilson v. J. Wade Quinn Co., Inc.,
330 Ark. 306, 308, 952 S.W.2d 167, 169 (1997). The owner will be subject to liability if he
or she knows, or would discover through reasonable care, a condition that involves an
unreasonable risk of harm that invitees either would not discover or will not protect
themselves against, and the owner does notuse reasonable care to protect the invitee from
the danger. Negligence in Arkansas is “a failure to exercise proper care in the
performance of a legal duty which the defendant owed the plaintiff under
the circumstances surrounding them.” Marlar v. Daniel, 368 Ark. 505, 508, 247 S.W.3d
473,476(2007). The operator of premises does not have a duty to guard against “merely
possible” harm. To create a duty, the harm must be likely or probable. Ethyl Corp. v.
Johnson, 345 Ark. 476,482, 49 S.W.3d 644, 648 (2001).
In Brooks v. Wal-Mart Stores, Inc., 535 SE 2d 55 - 2000 - NC: Court of Appeals, which
awarded the Plaintiff, was entitled to recover $2,490,000.00 from Wal-Mart. Wal- Mart’s
Negligence.
Punitive Damages:
Clearly, Petitioner would have not been injured if the retailer, Walmart adhered to the
Safely Guidelines recommended by OSHA when conducting Black Friday sales-events.

Page 12 of 37

Punitive damages may be awarded in wrongful death actions in Arkansas. Ark. Code Ann. § 16-55201(a). An award of punitive damages is justified only where the evidence indicates that the defendant
acted wantonly in causing the injury or with such a conscious indifference to the consequences that
malice may be inferred. Stein v. Lukas, 308 Ark. 74, 823 S.W.2d 832 (1992). Punitive damages do not
depend on the underlying theory or cause of action, but instead rest on the defendant’s conduct. See
Gilmer v. Walt Disney Co., 915 F. Supp. 1001 (W.D. Ark 1996). Punitive damages are appropriate when
thedefendant acts with malice. Satterfield v. Rebsamen Ford, Inc., 253 Ark. 181, 485 S.W.2d
192(1972).
Past Medical Bills
A plaintiff is entitled to recover the reasonable expense of any necessary medical care incurred in the
past. Arkansas applies the collateral source rule which allows a plaintiff to recover for those bills paid by
insurance. Pursuant to ARK. CODE ANN. § 16-55-212(b), the General Assembly purportedly reversed
the collateral source rule; however, this statute has been ruled unconstitutional by the Arkansas Supreme
Court. See Johnson v. Rockwell Automation, Inc., 2009 Ark. 241, 308 S.W.3d 135. Accordingly, plaintiffs
can “blackboard” all medical bills incurred provided they are fair and reasonably related to the injury at
issue.
2. Future Medical BillsA plaintiff is entitled to recover the reasonable expense of future
medical care that is reasonably certain to be required in the future. Recovery of future

medical bills will be reduced to present day value.
Loss Of Normal Life

Page 13 of 37

Arkansas recognizes loss of normal life as an element of damages.
Past Pain And Suffering
Arkansas recognizes past pain and suffering as a compensable element of damages. Pain and suffering
can be inferred from the serious nature of the injury, and mental anguish can be inferred from the extent
of physical pain. There are no definite rules or standards to measure compensation for pain and suffering.
The extent of medical expenses is not a controlling factor. Arkansas allows plaintiffs to use a per diem
basis to justify an award of pain and suffering. Arkansas does not, however, allow for an attorney to ask
the jurors to put themselves in the shoes of the plaintiffs.
Future Pain And Suffering
Arkansas allows for a plaintiff to recover for pain and suffering that is reasonably certain to be
experienced in the future, provided that the evidence establishes with a reasonable degree of certainty
that the future pain and suffering will occur. Awards for future pain and suffering are not reduced to
present value. See Appendices for health damages as mentioned above. Petitioner’s health had
deteriorated rapidly after the injury.
SUMMARY OF ARGUMENT
A. The Facts:
Petitioner was injured inside defendant’s premise when Respondent failed to implement adequate safety
procedure/ crowd control and failed to safely facilitate the Black Friday Sales-Event on November 27,
2014 at 8:00pm at Walmart store #0004, at 2901 Highway 412 E. Siloam Springs AR 72761.
Respondent neglected its Duty of Care owed to Petitioner. Respondent omitted crowd control it had
implemented during the 6:00pm sales-event but became inconsistent with its method and customers
including Petitioner lacked the knowledge Respondent will do next for 8:00pm sales-event. Respondent’s

Page 14 of 37

reckless conducts and disregard to plaintiff’s safety and without proper or adequate warning would have
prevented Petitioner to move away from the area for safety but Respondent reckless conducts exposed
Petitioner to imminent danger that caused multiple injuries to Petitioner and life miserable with pain and
sufferings.
To be negligent a person must be in a position to realize that his conduct involves a hazard to others. In
the Hill case we described a negligent act as "one from which an ordinary prudent person in the actor's
position in the same or similar circumstances would foresee such an appreciable risk of harm to others as to
cause him not to do the act, or to do it in a more careful manner. "Later, in Collier v. Citizens Coach Co.,
231 Ark. 489, 330 S. W.2d 74 Primary factors to consider in ascertaining whether the person's conduct
lacks reasonable care is the foreseeable likelihood that the person s conduct will result in harm, the
foreseeable severity of any harm that may ensue, and the burden of precautions to eliminate or reduce the
risk of harm. See Restatement (Third) of Torts: Liability for Physical Harm § 3 (P.F.D. No. 1, 2005).
Negligent conduct may consist of either an act, or an omission to act when there is a duty to do so. See
Restatement (Second) of Torts § 282 (1965).
Petitioner Has a Prima Facie Case
1. The existence of a lepal duty that the Respondent owed to the Petitioner.
There is no argument that Respondent, Wal-Mart Stores Arkansas LLC., is the owner of the Walmart
store, # store, at 2901 E. Highway 412 Siloam Springs AR 72761.
Wal-Mart Stores Arkansas LLC., head office is at:
702 SW 8th St, Bentonville, Arkansas 72716 Tel No. (479) 273-4000
2. The Respondent Breached Duty of Care and Duty Owed to Invitee. Business operators are liable

Page 15 of 37

for the actions of its employees. When store manager, Christopher Milam, failed to implement proper
crowd control such as que lines, barricade lines to avoid injury incident that could possibly happen when
retailer fail to implement proper crowd control. Safety First, Not Profit! It was only proper to limit
customers for the limited items to avoid rush and use reasonable care, needed for this big sales-event.
OSHA (Occupations Safety and Health Administration (see Appendix J-12). Customers and Petitioner
did not only waited almost two hours for the opening of the unveiling but also waited for further
instructions as to how safely the Petitioner can achieve its goal to buy the advertised merchandized safely
without any harm, operator must use safety procedure appropriate for the event. “An invitee can recover
from an owner for failure to use ordinary care if the invitee can show that (1) the premises was defective;
(2) the owner created the defect, or the defect was apparent to a reasonable owner who should have then
warned the invitee; and (3) the defect caused the injury. See Gann v. Parker, 315 Ark. 107; 865 S. W.2d
282 (1993).”
But Respondent’s store manager Mr. Milam took the risk and injured Petitioner during its reckless
business conducts and consummated the big sales without regard to safety . for si Respondent reckless
conducts had breached its Duty of Care Owed to the Petitioner. The operator of the premise does not
have a duty to guard against “merely possible” Harm. To create a duty the harm must be likely or probable.
Ethyl Corp. v. Johnson, 345,

Ark. 476, 482, 49, S. W. 3d 644, 648 (2001).

3. Petitioner’s Sufferance of the IniuriesPetitioner was injured after the Respondent, had recklessly conducted the event without regards to safety
at the opening of the sales-event at 8:00pm, November 27, 2014. Zenith Thompson who had witnessed
the rush of crowd of customers towards where Petitioner was standing, (see Appendix J-20, page3
paragraph 04, Zenith Thompson Affidavit of Witness. After the injury incident, she witnessed
Page 16 of 37

Petitioner, Krystal Megan Delima was distraught (see Appendix J-20, page 3, paragraph 05 and was on
pain and told her how she was hurt when the crowd rushed on her back to reach the limited sale items.
She also saw Petitioner talking to the Police Officer CPL. Filbeck, on the main aisle between the grocery
aisle and apparel aisle near where the Samsung Galaxy tablet was displayed few minutes after the injury
incident. Zenith Thompson drove Petitioner to Siloam Springs Regional Hospital Emergency, and was
with her the whole time while Petitioner’s multiple injuries were treated and then drove her home close
to midnight on November 27, 2014. (See Appendix J-20, Zenith Thompson Affidavit of Witness, page
4, paragraph 09), Siloam Spring Regional Hospital Medical Record, (see Appendix J-18, (3 pages)
Plaintiff Exhibit 8, 8a, and 8b. Following the injury incident subsequent medical treatments, physical
therapists and chiropractor followed. See other medical providers as stipulated by both parties on the
records more than 3 years of medical records and until now plaintiff/ appellant is suffering with pain and
have lost her quality of life due to injuries suffered caused by the Respondent, Wal-Mart Stores
Arkansas, LLC.’s Negligence.

PROXIMATE CAUSE
4..Proofs that Respondent’s breach of duty caused the injury
(typically defined through Proximate Cause)
Respondent had the legal duty to protect Petitioner, as an invitee when it conducted the two Black
Friday sales-events The Respondent became inconsistent on its method and omitted adequate
Crowd Control and became reckless on its conducts when it facilitated the scheduled sales at
8:00pm. Christopher Milam’s warning “be calm and courteous”, was inadequate and improper for

Page 17 of 37

this big sales-event. (see Appendix J 3, Police Incident Report, also marked as Joint Exhibit #3,
page WM-KD-0008, paragraph 3).

His announcement that it the sale was then open at 8:00pm, was like a “flood gate” lifted. The
Respondent’s failure to implement crowd control due to customers that were left to build on the
main aisle between the grocery aisle and apparel aisle, without guide and any supervised
customer’s line for safety when reaching the advertised merchandise, Customers rushed from
different directions and pushed forward to select the advertised special reduced price limited items
(see Appendix J-3, Police Incident Report, Joint Exhibit 3, also marked as WM-KD-0008,
paragraph 4). See Appendix J-20, Affidavit of Zenith Thompson also marked as Plaintiff
Exhibit 81, page 3 paragraph 4. Petitioner’s Affidavit of Witness by Zenith Thompson, was
submitted with Petitioner’s Motion for a New Trial on March 15, 2019. According to this
affidavit, prior to the scheduled sales, the premise became defective: customers were unmanaged
and unorganized and were left on middle aisle between the grocery aisle and apparel aisle without
que lines and customers were waiting for the sales and the respondent did not fix the problems in
the premise.
There were 2 hours between the two sales-event and would had been enough to implement proper
crowd control but the Respondent’s reckless conducts had caused multiple injuries to Petitioner.
Proximate cause exists when a negligent act leads to damages in a natural and continuous sequence,
unbroken by any efficient intervening cause. Kubik v. Igleheart, 280 Ark. 310, 311-12, 657 S. W.2d
545, 546 (1983). For an injury to be the natural and probable consequence of an act, the
consequence of the act might and ought to have been foreseen by the defendant as likely to jhw

Page 18 of 37

from that act and the act must, in a natural and continuous sequence unbroken by any new cause,
operate as the cause of injury.

BURDEN OF PROOF AND PREPONDERANCE OF EVIDENCE:
AMI 202 Meaning of Burden of Proof and Preponderance of the Evidence
A party who has the burden of proof on a proposition must establish it by a preponderance of the
evidence, unless the proposition is so established by other proof in the case [or unless a different standard
of proof is required by another instruction], “Preponderance of the evidence” means the greater weight
of evidence. The greater weight of evidence is not necessarily established by the greater number of
witnesses testifying to any fact or state of facts. It is the evidence which, when weighed with that
opposed to it, has more convincing force and is more probably true and accurate. If, upon any issue in
the case, the evidence appears to be equally balanced, or if you cannot say upon which side it weighs
heavier, you must resolve that question against the party who has the burden of proving it.
Petitioner has substantial evidences: Customer’s Complaint, Appendix J2,,Police Incident Report,
Appendix J-3, Walmart Claim # L4200771, Affidavit of Witness, Zenith Thompson, AppendixJ-20.
Medical Record at Siloam Springs Regional Hospital, Appendix J-18 and many more evidences that are
mentioned on the Appendices of this PETITION OF WRIT OF CERTIORARI, in support of Petitioner’s
claims of negligence safety and premise liability against the Respondent. It only needed 1 % more to add
to 50 percent on one side of the scale and tip the scale of justice, hence the Preponderance of Evidence is
essential in the determination of the verdict. The Petitioner had met the Burden of Proof.
CLAIMS AGAINST RESPONDENT UNDER NEGLIGENCE AND PREMISE LIABILITY

Page 19 of 37

Petitioner was injured inside Respondent’s premise when it recklessly conducted the sales-event at 8:00pm,
November 27, 2014. See damages indicated above and computations both compensatory and punitive
damages, which include physical, emotional and mental distress, economic and punitive damages.
Respondent’s reckless conducts was the PROXIMATE CAUSE of Petitioner’s multiple injuries.
Under Common Law,
Negligence in Arkansas is “a failure to exercise proper care in the performance of
a legal duty which the defendant owed the plaintiff under the circumstances
surrounding them.. ”Marlar v. Daniel, 368 Ark. 505, 508, 247 S. W.3d 473, 47
(2007).
PRESERVATION OF EVIDENCE
A party’s obligation to preserve evidence can arise even before litigation is commenced if the party
knows or should know litigation is likely.
1. To determine whether a party should know litigation regarding an incident is likely, the Eastern
District of Arkansas has considered whether the party is frequently involved in lawsuits regarding that
type of incident.
2. For example, in Harrison, defendant Union Pacific Railroad Company had “frequently been a party to
litigation involving highway crossing accidents...” and had the experience necessary to know “what
evidence [was] relevant, what evidence [was] likely to be requested in discovery, and what evidence
[was] likely to be found Harrison v. Union Pac. R.R. Co., 2002 U.S. Dist. LEXIS 29004, *4 (E.D. Ark.
2002). 2 Id. at *9.
3 Id. discoverable by the courts.”3 Therefore, the court concluded Union Pacific knew litigation was
likely after a fatal highway crossing accident occurred. 4. A party should know litigation is likely when

Page 20 of 37

it has frequently been a party to litigation regarding a particular type of incident, or otherwise knows the
potential for litigation regarding that type of incident is high. Thus, a party should begin to preserve
evidence as soon as it knows or should know litigation regarding an incident is likely.
Wal-Mart Stores Arkansas. LLC. Failed to Preserve Evidence
In Arkansas, spoliation is defined as the intentional destruction of evidence. A failure to preserve
evidence may be considered spoliation where it is intentional. There is no independent cause of action in
Arkansas for claims of first or third-party spoliation. There are, however, other means by which a party
may be reprimanded for engaging in spoliation, such as special jury instructions, discovery sanctions, and
criminal liability.
The adverse inference under the doctrine of spoliation has been drawn where a physician failed to dictate
a post-surgical note, when required by standard medical procedure and public policy to do so. Smith v.
United States, 128 F. Supp. 2d 1227, 1233-34 (E.D. Ark. 2000).
4.RESPONDENT HAD VIOLATED ITS OWN PRESERVATION POLICY WHEN THERE IS AN INCIDENT, JOINT

Exhibit # 4, Customer Evidence Collection Sheet, (see Appendix j-4.
The Policy requires one hour before and one hour after and must depict the location, orientation,
materials and details of the incident. Melanie Houchin had prepared this report on November 27, 2014,
the night of the incident and missed important details and factual information and did not depict the
location of the incident on the report. Melanie Houchin, had knowledge of the spoliation of the video,
she knew that WM-KD-0001, is not the location of the incident because she was there together with
Christopher Milam when he made the announcement of the opening of the scheduled sales-event at the
Samsung Galaxy tablet location at 8:00pm. WM-KD-001, recorded surveillance video, Joint Exhibit # 8,
is an evidence of spoliation, a look alike video of incident EXCEPT that, it did not depict the

Page 21 of 37

orientation, the location, time stamped, and related material facts found on the Police Report, Police
Incident Report, Joint Exhibit # 3. The video, WM-KD-0001 was used by the Petitioner during jury trial
as a demonstrative presentation of Respondent’s Spoliation of Evidence, showing that Respondent
intended to mislead the fact finders. It was a “scapegoat” to cover Respondent’s violtions, and to avoid
charges of Negligence and Premise Liability. But instead, the video WM-KD-0001, highlighted
negligence and premise liability and how store hazardously and recklessly operated during the time of
8:00pm, on November 27, 2014. This video was submitted by the Respondent’s counsel during the
discovery as the video of the incident, (see Appendix

., Joint Initial Disclosure Which means the

intention was to establish the ground that Respondent was not negligent on its conducts or operation of
the store for its defense. The controversies around the video, WM-KD-0001 was noted and questions
aroused because it did not depict the location and people involved material facts on the Police Incident
Report, Joint Exhibit #3, Appendix J-3.

SPOLIATION OF EVIDENCE
Melanie Houchin, the assistant store manager who had knowledge of the spoliation of evidence for
reasons that she stood by the side of Christopher Milam, the store manager that made the announcement
of the scheduled sales event at 8:00pm at the Samsung Galaxy tablet location , where the Petitioner was
injured during the announcement. The two were both at close proximity and Petitioner saw them before
and after the injury. After the injury at 8:00pm, the petitioner approached the police officer Filbeck,
who was assigned to work near the Samsung Galaxy tablet display where the injury occurred, who made
the Police Report (Joint Exhibit #3. Police Officer Filbeck, called store manager assistant to report the
injury. Also, the Petitioner filed a handwritten complaint, Joint Exhibit # 2 and was handed to Melanie
Page 22 of 37

Houchin who then received, signed and dated, November 27, 2014, the complaint few minutes after the
injury, responsible for Walmart Injury Report ( Claim Report), Joint Exhibit # 1 (see Appendix J-3).
On the Claim Report, she reported the Krystal Delima was injured but did not reported the location of
the incident and failed to preserve the evidence which violated its own store policy.
At 9:00pm EST (Eastern Standard Time) which is in Arkansas time zone, is 8:00pm CDT. The
scheduled sales event was opened, When the video is paused at 9:00pm EST(Eastern Standard Time and
that is 8:00pm CDT, Central Daylight Time, which is Arkansas time, when the store manager,
Christopher Milam, made his announcement, he could not be seen on the video. The three police offices,
Filbeck, Jackson and Hall were all not seen on the video. Melanie Houchin together with Christopher
Milam were also not seen and the worst Petitioner talking to Officer Filbeck were also not seen on the
footage of this recorded surveillance video but this video had concealed the scene of the injury incident
and the controversy that surrounded this video evidence produced by Respondent. Spoliation of Evidence
begun with assistant manager, Ms. Houchin
C.. THE WORST PART OF THIS VIDEO, WM-KD-0001, is that, this video is not showing the main
aisle_between a grocery aisle and an apparel aisle which was the description of the orientation of the
location where the injury occurred, (see Appendix J-3 police incident report, Joint Exhibit 3, page WMKD-0001 paragraph 2). Respondent’s reasons that there was only one surveillance camera and it was on
the back opposite to the front main entrance. WM-KD-0001, has not been in compliance to the Rule of
Evidence 901 (9) Evidence About a Process or System. Evidence describing a process or system and
showing that it produces an accurate result. Rule of Evidence 902, That is Self Authenticating, and 902
(13) Certified Records Generated by an Electronic Process or System. A record generated by an
electronic process or system that produces an accurate result, as shown by a certification of a qualified

Page 23 of 37

person that complies with the certification requirements of Rule 902(11) or (12). The proponent must
also meet the notice requirements of Rule 902(11). The Respondent had failed to comply the
requirements and failed to authenticate the evidence. During the Final Pre-Trial Disclosure, the
Respondent did not include this video on its List of Evidence (doc.29) filed on 01/15/20/19, due to the
facts that the video was prepared on February 22, 2018, by the Respondent’s counsel, Mitchell, Williams,
Selig, Gates and Woodyard PLLC., and therefore not on the original format or media. That alone is
Spoliation of Evidence, (see image of video disc, Appendix J-22), WM-KD-0001, Exhibit #11Spoliation Evidence (doc 85). What more? the video had a time stamped EST (Easter Standard Time)
Arkansas belongs to CDT (Central Daylight Time). The are so many discrepancies on this video and
would not pass on the above requirements under Rules of Evidence for validity.
But what the video, WM-KD-0001, was showing is that Respondent had been operating its business
under a hazardous condition wherein customers were left to build up under unsafe condition. Respondent
had operated its business under unsafe premise and it failed to implement crowd control and operating
over the maximum capacity and endangering customers, and showing customers elbow to elbow and were
not walking smoothly due the compactness of the premise. This footage demonstrate that Respondent had
been Negligent lacked of care for safety and took the risk of injury in the Premise and what more?
Spoliation is considered Negligence in the conduct of accountability of its actions especially when
conducting big business sales events to demonstrate its control.
PREPONDERANCE OF EVIDENCE
All of Petitioner’s claims against the Respondent are. supported with facts such as police report, Joint
Exhibit, Emergency at Siloam Springs Regional Hospital, Customer’s Complaint, (see Appendix J-18
Exhibit 8, 8a, 8b, affidavit of witness, Exhibit 81, Medical and all evidentiary materials on file.

Page 24 of 37

PETITIONER’S WITNESS OF THE INJURY INCIDENT
ZENITH THOMPSON, Petitioner’s daughter appeared and testified during the jury trial. She was a
witness to the injury incident due to the facts that she was with Petitioner during the two sales-events on
November 27. 2014, in which she witnessed that before the scheduled sales-event at 8:00pm, she saw
that the crowd of customers were left unattended and were left to build up in the middle aisle behind
Petitioner’s back. She witnessed that the crowd of customers rushed towards the Petitioner, (see J-20,
Zenith Thompson Affidavit of Witness, page 3, paragraph 02). After the crowd dispersed, she saw and
talked to Petitioner, who appeared distraught. After few minutes, she saw Police Officer Filbeck,
talking with the Petitioner, while making the incident report. She also saw Melanie Houchin, the
assistant manager who received the Petitioner’s Customer Complaint handed to her by the Petitioner.
She heard Melanie Houchin refused to show the recorded surveillance video of the incident after
Petitioner requested to watch video injury incident, stating that only Ms. Houchin can see the video of
the incident. Zenith Thompson drove Petitioner to the emergency department at the Siloam Spring
Regional Hospital few minutes after 9:00pm after she paid for Petitioners purchased items. She
appeared ant testified during jury trial. Affidavit submitted with the Motion for a New Trial, ( doc. 1412), filed on 03/15/2019. Appendix _ .
PROOFS THF. RESPONDENT WAS NEGLIGENT:
During the 3rd day of Jury Trial, Respondent’s store manager, Chris Milam, testified that his word, “be
courteous and calm” was enough to control the big crowd of customers which was contrary to the
guidelines by OSHA ( Occupational Safety and Health Administration) (see Appendix J-18, Safety
Guidelines Recommended for Retailers like Walmart during Black Friday Sales-Event. According to
Respondent’s store manager, Chris Milam, that the crowd line act as buffer so he can walk around and

Page 25 of 37

talk to customers. He did not implement que lines for customers’ safety, its for him to walk around for
big guy like him, as noted on his testimonies. The Court also confirmed that testimony of Chris Milam,
(see Appendix- J-15B, on page 62, line 12, 13, 14, or 15:
Line 12- THE COURT: Ma’am, he is testified that he
Line 13- walked the area in the buffer space, that he engaged
Line 14- people in conversation, he looked for things, he relied on his experience, (see appendix J
Christopher Milam, the store manager did implement que line for customers to move safely towards
the sale items and managed by Walmart staff. (See Exhibit 105 filed at Eight Circuit Court of Appeals).
He did not manage his staff to make sure that the customers will have specific line to line-up for Samsung
Galaxy tablet and other limited items that were displayed on each sides and make sure the customers
were limited according to the number of limited items displayed in the Samsung Galaxy Table location to
avoid injuries. According to Mr. Milam, his word, “be calm and courteous” is enough to control the
crowd as many as this video footage of WM-KD-0001, is showing.
During the jury trial February 21, 2019, Police Officer Timothy Filbeck, appeared at the trial and
testified that the Respondent did not establish que lines to make customers line up towards the limited
items offered for sale at special reduced sale price. That the customers and Petitioner were standing on
the boundaries in front of the merchandise where the two Police Officers, C. Jackson and T. Hall were
Standing prior to the unveiling of the sale items, was established. (see Appendix 19, page
10,11,13,14,15,15,and 17. The court also confirmed that que lines were not established, (see Appendix
20, page 17.
That the only announcement for the customers was “be calm and courteous”. No other warning was
given by the Respondent’s store manager, Christopher Milam, (see above appendices)

Page 26 of 37

RESPONDENT HAD FAILED TO PRODUCE THE VIDEO OF THE INCIDENT
As agreed by Respondent on its Joint Rule 26 (f)- Exhibit 12A, paragraph 2. (see Appendix J-19.
Instead Respondent produced to Petitioner a video, WM-KD-0001, prepared by Mitchell Williams, Selig,
Gates, and Woodyard, PLLC. on February 22, 2018. The video was not on its original format and did not
meet the requirements under the above mentioned Rules of Evidence
THE MISCARRIAGE OF JUSTICE
THE IRREGULARITIES DURING THE PROCEEDING:
FAILURE TO CALL ITS WITNESS THAT WAS SUBPOENAED
Respondent’s Key Witness Melanie Houchin had failed to appear to testify for Respondent’s defense,
though was subpoenaed and Notice to Appear to Testify (doc. 124( filed on 02/14/2019. (see AppendixJ30). Returned service was also filed (doc. 125) filed on 02/14/2019. (see Appendix J-32). Respondent’s
Pre-Trial Disclosure (doc 79) filed on 01/15/2019, included Melanie Houchin, in the List of Witnesses to
testify for its defense for the jury trial on 02/20-22/2019. During the proceeding, Melanie Houchin’s
name was called to come to the witness stand to testify but Respondent failed to call its witness. It was a
disruption during the jury session and the judge had to call a sidebar then Respondent’s counsel, Atty.
Crawford, told the judge and the Petitioner that the witness had been moved to another store about 2
weeks ago, but the Respondent’s counsel, Atty. Crawford had not communicated way in advance before
the trial time to avoid surprises and disruptions during the trial. The courtroom atmosphere was disturbed.
Respondent’s misconducts had contributed to the irregularities of the proceeding.
The law is an application of basic fairness and presentations of truth for which the case is adjudged and
lawyers arc expected to obey the laws.

Page 27 of 37

Mis-conducts are against the law: Rule 8.4:
It is professional misconduct for a lawyer to:
(a) violate or attempt to violate the Rules of Professional Conduct, knowingly assist or induce another to
do so, or do so through the acts of another;

(c) engage in conduct involving dishonesty, fraud, deceit or misrepresentation;

(d) engage in conduct that is prejudicial to the administration of justice;’

https://www.americanhar.org/groups/professional responsibility/publications/
model rules of professional conduct/rule 8 4 misconduct/. 9:59am, 9/17/2020.
Mis-conducts:
1. Preparation of Recorded Surveillance Video, WM-KD-0001.
Respondents counsel, Atty. Crawford was asked by Petitioner during the discovery period on March 5,
2018 (see Appendix J-24) and again on March 15, 2018 (see Appendix- J25), about the Walmart
surveillance video, WM-KD-0001, because it was not in an original storage but it was prepared on
February 22, 2018, by Mitchell, Williams, Selig, Gates and Woodyard, P.L.L.C. (see image of
Surveillance Video disc Mark as Exhibit WM-KD-0001, and it was not in compliance to Federal Rules
of Evidence 901(13) and 902 (11) and NO certification was included, (see Appendix J-22- Image of
WM-KD-0001) and that alone is already an evidence of Spoliation. This evidence is already violating the
certification requirement and voided the validity of this evidence. The reference to the "certification
requirements of Rule 902(11) or (12)" is only to the procedural requirements for a valid certification,
because the preparer of WM-KD-0001, was not the custodian of record of the surveillance video camera
of the Respondent Walmart. Up to the date of Jury Trial, February 20-22, 2019, the video WM-KD-

Page 28 of 37

0001 was never certified for authentication. Therefore, the recorded surveillance video did not qualify
under the RULES of EVIDENCE 902(11) or (12), since it was not authenticated and not valid for
evidence.
Similarly, a person could not become a lawyer without passing the American Bar.
2. Failure to Disclose Information About Exhibit 5A, Walmart Store Lay-out, also marked Appendix-J13. See AppendixJ-13. It is a known facts that the injury occurred at 8:00pm on 11/27/2014, during the
sale of Samsung Galaxy tablet as evidenced by the following Exhibits: Police Report, (see APPENDIX J-3A POLICE INCIDENT REPORT (WM-KD-0008/ page 4), see also, Injury Reported on 11/27/2014,
by Melanie Houchin appears in APPENDIX- J-1 WALMART CLAIM (2 pages, JOINT EXHIBIT #
1) and APPENDIX- J2 CUSTOMER COMPLAINT (1 page, JOINT EXHIBIT # 2). So, why Walmart
present another time evidence?
3. Failure to call to call to testify witness, Melanie Houchin, during the Jury Trial as stated on its Final
Pre-Trial Disclosure, (see APPENDIX- J28 RESPONDENT’S FINAL PRE-TRIAL DISCLOSURE on
01/15/2019. This is an act of obstruction to justice for reasons that the jury was prevented to hear the
testimony of the witness, Melanie Houchin and the acts had caused the jury to “stall” and disrupted the
jury judgment process which resulted in a cloudy verdict. For the Respondent’s counsel to announced
that the witness could not appear to testify when her name was called several times during the jury trial
session, this is a Misconduct and caused confusion and disturbed the jury’s judgment process. The act
was unfair and prejudicial to Petitioner’s case. Walmart counsel had knowledge of the plan for Melanie
not to appear to strategically confused the jury and move without any evidence to exhibit in support of its
position but turn around and took advantage of the condition of the jury trial which was unfairly
conducted since it was a defective trial and justice was not serve.

Page 29 of 37

Arkansas Rules of Civil Procedure 59:
Rule 59 - New Trials(a)Grounds. A new trial may be granted to all or any of the parties and on all or part of the
claim on the application of the party aggrieved, for any of the following grounds materially affecting the
substantial rights of such party:(l) any irregularity in the proceedings or any order of court or abuse of discretion
by which the party was prevented from having a fair trial;(2) misconduct of the jury or prevailing party;
(3) accident or surprise which ordinary prudence could not have prevented;(4) excessive damages appearing to
have been given under the influence of passion or prejudice;^) error in the assessment of the amount of recovery,
whether too large or too small;(6) the verdict or decision is clearly contrary to the preponderance of the evidence
or is contrary to the law;
Respondent counsel only answered misleading information and made an alibi that there were some
stipulations on its Answer at (Request for Admission) RFA, but failed to answer with sufficiency and
failed to reference the item number of Respondent’s Answer to Petitioner’s Request for Admission that
supported its claims. Another email clarifying the facts behind Joint Exhibit #5 was sent to Respondent
counsel but Respondent had failed to disclose the facts store map, was not the 8:00pm sales -event where
the injury incident occured It was used to mislead the fact finders:, the jury, judge and Petitioner and all
others who there in the courtroom and created disruptions and confusion in the proceeding.
Below is the excerpt of Christopher Milam’s Transcript- on the 3rd day of the jury trial, 02/22/2019.
(see Appendix J-14, J-14A)
Page 59, Line 12. Q. It doesn’t say this is 6:00 o’ clock . This is
Page-59, Line 13.

The photo thing of your store, and the only missing here is

Page 59, Line 14. The Samsung Galaxy here. Can you please look at the
Page 59, Line 15. Samsung Galaxy on this map?
Page 59, Line 16. A. It is not there ma’am .
Page 59, Line 17. Q. Yeah, its not there. So,
Page 59, Line 18. A. It’s the 6:00 o clock sale here. It is not going to
Page 59, Line 19.

be on the map here.

Another Disruption:
Respondent’s witnesses, Heather Reddell, was late for more or less 15 minutes. The court, the jury, and

Page 30 of 37

everybody inside the Court Room were held in suspense of her delay. It was a disturbance and disruption
on the jury trial or proceeding.
All of the above misconducts, misrepresentation and disruptions, all added in the irregularities of
the proceeding on February 20-21, 2019. The above mentioned irregularities were all sufficient
ground to have Motion for a New Trial, under Arkansas Fiduciary - Rule 59. New Trials.

(a) Grounds. A new trial may be granted to all or any of the parties and on all or part of the claim on the
application of the party aggrieved, for any of the following grounds materially affecting the substantial
rights of such party: (1) any irregularity in the proceedings or any order of court or abuse of discretion by
which the party was prevented from having a fair trial; (2) misconduct of the jury or prevailing party; (5)
error in the assessment of the amount of recovery, whether too large or too small; (6) the verdict or decision
is clearly contrary to the preponderance of the evidence or is contrary to the law;
1) any irregularity in the proceedings or any order of court or abuse of discretion by which the party was
prevented from having a fair trial;
But the court had denied Petitioner’s Motion for a New Trial and Petitioner lost the opportunity for a fair
trial to have the facts tried with fairness under the DUE PROCESS of Laws as stated in Amendment XIV,

, ‘No state shall make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the laws.
Petitioner’s right for a fair was violated and justice was not served due to lacked of fundamental fairness
on the jury trial or proceeding that resulted in a cloudy verdict. The jury did not reach an “impartial

Page 31 of 37

verdict” and resulted the verdict going against the Preponderance of Evidence and Judgment in favor to
the Petitioner.
Malpractice of Federal Court Reporter, Dana Hayden, a Violation on
Judiciary Policy § 520.46.10 (c)- “A separate table in the index must indicate the page at
which any exhibit was marked for identification and received in evidence.”
Dana Hayden had caused some difficulty in the analysis of the transcripts because of the missing
information supposedly written on a separate table in the index as indicated on Judiciary Policy §
520.46.10 (c) Under the above policy, a separate table in the index must indicate the page atwhich any
exhibit was marked for identification and received in evidence. This was crucial because before
deliberation of the verdict, the jury panel reviewed and read the details of the transcripts in the jury
room. The transcript lacked important details for consideration before jury deliberation and verdict
and was clouded due to Federal Court Reporter’ malpractices and violation of the above mentioned,
judiciary policy. The Federal Court Reporter’s violation was prejudicial to the jury trial and had caused
the jury Inot to reach an impartial verdict. The Court Report Dana Hayden did not identify the page at
which any exhibit was marked for identification that evidence was received in a separate table on the
index. Judiciary Policy § 520.46.10 (c)
Below are transcripts of the following testimony of witnesses that were affected: (note: actual copy of
exhibits below are filed at the Eight Circuit Court of Appeals) All of the transcript below were prepared
in violation to the above Judiciary Policy.
Zenith Thompson, Exhibit 90, 90A and 90B.
Krystal Megan Delima, Exhibit 96, 96A and 96B.
Timothy Filbeck, Exhibit 97, 97A and 97B.

Page 32 of 37

Christopher Milam, Exhibits 98. 98A and 98B.
Federal Court Reporter, Dana Hayden’s, violation to Guideline to Judiciary Policy-§ 520.46.10
Requirement (b) The index must also indicate on behalf of whom the witness or witnesses were called.
The transcripts due to Federal Court Reporter’s malpractice or violation Judiciary Policy-§ 520.46.10
Requirement (b) lacked important details that the following witness:
(1) Zenith Thompson was a Plaintiff’s witness.
(2) Christopher Milam was a Defendant’s witness
(3) Timothy Filbeck was a defendant’s witness
(4) Krystal Megan Delima was a plaintiff’s witness.
Judiciary Policy. § 520 Transcript Format
The Judicial Conference first adopted the uniform transcript format in 1944 to assure that each party is
treated equally throughout the country. JCUS-SEP 44, Appendix. Due to Court Reporter, malpractices
and violations in preparing the transcripts, plaintiff/appellee’s case had lost or missed the chance for a
fair judgment and have contributed to the miscarriage of justice.Some missing pages of Zenith
Thompson’s Transcript from pages 15 to 32, because it stated on the index, that the Certification of
Court Reporter Page is at 33 but the page of the Certification is at page 14. (see attached Certification
Page by Dana Hayden, Exhibit- 90, 90A and 90B. (Note: Copy of Exhibits are filed at the Eight Circuit
Court of Appeals). The complaint was filed on Ju, ne 05, 2019 at the Administrative of the United States
Courts at One Columbus Circle, NE Washington DC 20544. A copy of the complaint is included in the
Appendix J-36A)
USPS Tracking 9590 9402 3796 8032 9767 81, Appendix J-36 AND J-36A.)
In addition Petitioner had included on the APPENDICES, additional support:

Page 33 of 37

APPENDIX -J-36B PETITIONER’S EMAIL TO COURT REPORTER, DANA HAYDEN
FOR PAYMENT OF ALL THE TRANSCRIPTS ON MARCH 19, 2019
Christopher Milam , Zenith Thompson, Timothy Filbeck
APPENDIX-J-37 PLAINTIFF SUPPLEMENTAL PRE-TRIAL DISCLOSURE- ABOUT WRONG
FILE MARK BY COURT CLERK. EMAILED IANUARY 28, 2019
APPENDIX - 1-38 PETITIONER EMAIL TO COURT ABOUT AMI2203- MEASURE OF DAMAGE
AGGRAVATION OF PRE-EXISTING CONDITION BE ADDED. 02/20/2019
APPENDIX -J-39 PETITIONER PROPOSED JURY INSTRUCTIONS IN COMPLIANCE TO COURT
REQUIREMENTS FOR THE PREPARATION OF THE TRIAL 02/20-22/2019
APPENDIX J-40 PETITIONER’S OBJECTION ABOUT WALMARTS EXHIBIT
RESPONDENT HAS NOT BEEN SPECIFIC AND MAKING THE PETITIONER
BLIND TO WHAT RESPONDENT WILL OFFER. FEBRUARY 15,2019
APPENDIX J-41 PETITIONER’S EMAIL TO COURT TO RESERVE SPOLIATION JURY
INSTRUCTIONS AND VERDICT FORM OPEN. FEBRUARY 20,2019
APPENDIX J-42 PETITIONER’S ERRATA ABOUT DEPOSITION CORRECTION BECAUSE THE
TRANSCRIBER DROPPED A LOT OF WORDS AND PUT DIFFERENT WORDS
INSTEAD. THE DEPOSITION WAS CONDUCTED AT THE RESPONDENT
COUNSEL’S OFFICE AND THE TRANSCRIBER DROPPED A LOT OF WORDS
OR WORDS WERE DIFFERENT THAN WHAT PETITIONER STATED . THE
TRANCRIPDON MADE PETTIONER’S STATEMENT INCONSISTENT WITH
HER OWN STAND ABOUT THE CASE. THIS ERRATA SHEET MADE THE
NECESSARY CORRECTION TO MAKE CLEAR OR PUT BACK THE WORDS
TO CLARIFY, AND COMPLETE THE MISSING WORDS.

STANDARD OF REVIEW
A. Substantial Evidence
Substantial evidence means more than a mere scintilla; it means such relevant evidence as a reasonable
mind might accept as adequate to support a conclusion. See Richardson v. Perales. 402 U.S. 389. 401
(1971): Gebhart v. SEC. 595 F.3d 1034. 1043 (9th Cir. 2010):Howard ex rel. Wolff v. Barnhart. 341
F.3d 1006. 1011 (9th Cir. 2003). The court of appeals must consider the record as a whole, weighing
both the evidence that supports and the evidence that detracts from the agency’s decision. See Maves v.
Massanari. 276 F.3d 453. 459 (9th Cir. 2001): see also Int’l Union of Painter & Allied Trades v. J & R
Flooring. Inc.. 656 F.3d 860. 865 (9th Cir. 2011): Hawaii Stevedores. Inc, v. Ogawa. 608 F.3d 642. 652
(9th Cir. 2010) (“The ALJ is expected to consider the record as a whole, including all witness testimony
and each medical report, before entering findings”). The court must affirm where there is such relevant
evidence as reasonable minds might accept as adequate to support a conclusion, even if it is possible to
draw contrary conclusions from the evidence. See Howard ex rel. Wolff v. Barnhart, 341 F.3d 1006,
1011 (9th Cir. 2003).
B. The District Court Abuse of Discretion“An abuse of discretion is a plain error, discretion exercised to an end not justified by the evidence, a
judgment that is clearly against the logic and effect of the facts as are found.” Rabkin v. Oregon Health
Sciences Univ.. 350 F.3d 967, 977 (9th Cir. 2003) (citation and internal quotation marks omitted);

Page 34 of 37

•

District court does not apply the correct law or rests its decision on a clearly erroneous
finding of a material fact. See Jeff D. v. Otter. 643 f.3d 278 (9th Cir. 20111 (citing
Casey v. Albertson’s Inc., 362 F.3d 1254, 1257 (9th Cir. 2004)).

•

District court rules in an irrational manner. See Chans v. United States. 327 F.3d 911.
925 (9th Cir. 2003): see also Cachil Dehe Band of Wintun Indians of the Colusa Indian
Cmtv. v. California. 618 F.3d 1066. 1084 (9th Cir. 2010) (concluding district court
did not rule in an irrational manner).

Record contains no evidence to support district court’s decision. See Oreson Natural Res. Council v.
Marsh. 52 F.3d 1485. 1492 (9th Cir. 19951
Court’s Abuses:
1. At the beginning of the jury trial, day 1, February 20, 2019, I heard Atty.

Crawford,

defendant’s counsel saying that the defendant has no evidences for submission for the trial and
there was a commotion. Even the style of the case was improperly used, it was KRYSTAL
MEGAN DELIMA vs. WAL-MART CORPORATION during the jury trial on February 2022, 2019. Note that, It has been ordered by Court since 02/20/2018, to change the style of
the case and the case participant name to reflect the correct name of the Respondent and to
change the name from Walmart Corporation to Wal-Mart Stores Arkansas, LLC. ordered and
signed by Judge Timothy L. Brooks.
Krystal Megan Delima vs. Walmart Corporation was not the proper respondent for the trial. The trial
showed significant defects and miscarriage of justice.
The judge opinion (see Appendix- to justify that Melanie Houchin’s failure to appear to testify is not
essential to the jury trial and the case was tried without the facts? This is an abuse of discretion due to the

Page 35 of 37

fact that Respondent Final Disclosure had stated that Melanie Houchin is to appear to testify. The Laptop
issue had been resolved during the 7:00 meeting at the court and final Jury instruction were given that is
why petitioner filed a Motion to Produce a copy of the audio recorded jury trial due to its defects.
The Core Values of the Federal Courts: Equal Justice: fairness and impartiality in the administration of
justice; accessibility of court processes; treatment of all with dignity and respect.
REASON FOR GRANTING THE PETITION
The reason for the review is that there were irregularities of the proceeding and the Motion for a
New Trial would have given the administration of justice a fair chance. Petitioner has the right
for a Fair Trial. In order for the jury to reach an “impartial verdict”, a fair trial must be
conducted with observance to the guidelines of Judiciary Policy as prescribed in the preparation
of the transcripts and observance of the basic fundamental fairness in the administration of
justice. There are substantial evidences that the Respondent, Wal-Mart Stores Arkansas, LLC.,
have violated the laws that were involved under Negligence and Premise Liability. Claims made
by the Petitioner against the Respondent are all supported with substantial evidences to give
credits to the Preponderance of Evidence in the prosecution of this case and it only need 1 (one)
percent for scale of justice to tip on the Petitioner’s favor. The Respondent is guilty as charged
and failed to present essential facts for its Defense.
Another consideration is the importance to the public of the issue. That defective jury trial as
experienced on this case as noted that some defects of had been admitted by the Court such as
court reporter mal-functions on the preparation of the transcripts, which Petitioner had submitted
the complaints to the Administrative Office of the Federal Court System at Washington DC.

Page 36 of 37

<

Which appears of Appendices: J36, J36A Respondent’s mis-conducts such as
These are the reasons this case deserves a review so that justice will be served.

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submittei

KRYSTAL MEGAN DELIMA- PETITIONER

i

Page 37 of 37

